APPENDIX TO THE PETITION FOR
A WRIT OF CERTIORARI
TABLE OF CONTENT
Opinion of the Florida District Court of Appeal, First District (May 19,
2020)………………………………………………………………….…………………………1a
Order of the Florida District Court of Appeal, First District Denying Motion for
Rehearing (June 17, 2020)…………………………………..………………………………1b
Final Order of the Division of Administrative Hearings (Aug. 19, 2019)1…………...1c
Order of the Division of Administrative Hearings Denying Motion for Rehearing
(Aug. 22, 2019)..…...…………………………………...………………………………………1d
Relevant Florida Statutes under Review………………………………………………….1e

Due to the order being issued in PDF format, its exact formatting could not be
preserved in the editing software (Microsoft Word) because the text size and
margins could not be made to match exactly. However, the text of the order is
exactly as it appeared when issued.
1

1a

FIRST DISTRICT COURT OF APPEAL STATE
OF FLORIDA
_____________________________
No. 1D19-3343
_____________________________
ARTEM M. JOUKOV,
Appellant,
v.
OFFICE OF THE STATE ATTORNEY
SECOND JUDICIAL CIRCUIT OF
FLORIDA,
Appellee.
_____________________________
On appeal from a Final Order of the Division of Administrative
Hearings.
Suzanne Van Wyk, Administrative Law Judge.
May 19, 2020
PER CURIAM.
AFFIRMED.
LEWIS, ROWE, and JAY, JJ., concur.

2a

_____________________________
Not final until disposition of any timely and authorized motion
under Fla. R. App. P. 9.330 or 9.331.
_____________________________
Artem M. Joukov, pro se, Appellant.
Michael P. Spellman and Mitchell J. Herring of Sniffen & Spellman, P.A.,
Tallahassee, for Appellee.

2

1b
DISTRICT COURT OF APPEAL, FIRST DISTRICT
2000 Drayton Drive
Tallahassee, Florida 32399-0950
Telephone No. (850)488-6151
June 17, 2020
CASE NO.: 1D19-3343
L.T. No.: 2018-5833F

Artem M. Joukov
Appellant / Petitioner(s),

v.

Office of the State Attorney Second
Judicial Circuit of Florida

Appellee / Respondent(s)
BY ORDER OF THE COURT:

Appellant's motion docketed May 27, 2020, for rehearing, rehearing en banc,
clarification, written opinion, and/or certification is denied.

I HEREBY CERTIFY that the foregoing is (a true copy of) the original court order.
Served:
Michael P. Spellman
Artem M. Joukov
th

Mitchell J. Herring

1c
STATE OF FLORIDA
DIVISION OF ADMINISTRATIVE HEARINGS
ARTEM M. JOUKOV,
Petitioner,
vs.

Case No. 18-5833F

OFFICE OF STATE ATTORNEY SECOND
JUDICIAL CIRCUIT OF FLORIDA,
Respondent.
_______________________________/
FINAL ORDER
A duly noticed final hearing was held in this matter on May
30, 2019, in Tallahassee, Florida, before Suzanne Van Wyk, an
Administrative Law Judge assigned by the Division of
Administrative Hearings.
APPEARANCES
For Petitioner:

Artem Mikhailovich Joukov, Esquire
2651 Ellendale Place, Apartment 304
Los Angeles, California 90007

For Respondent:

Michael P. Spellman, Esquire
Mitchell J. Herring, Esquire
Sniffen & Spellman, P.A.
123 North Monroe Street
Tallahassee, Florida 32301
STATEMENT OF THE ISSUE

Whether Petitioner is entitled to attorneys’ fees, pursuant
to sections 57.105, 57.111, and 120.595, Florida Statutes, for
defending the underlying overpayment claim filed by Respondent.

1

2c
PRELIMINARY STATEMENT
On August 28, 2018, Petitioner filed a Motion for
Attorneys’ Fees with the Division of Administrative Hearings
(“the Division” or “DOAH”) in Case No. 18-4235.

In that case,

Respondent herein sought the return of an overpayment to
Petitioner following Petitioner’s separation from Respondent’s
employment (“the underlying overpayment claim”).

The

undersigned dismissed the underlying overpayment claim, with
leave to amend, on October 2, 2018.

On October 18, 2018,

Respondent filed a Notice in Response to the October 2, 2018,
order, in which Respondent essentially withdrew its claim for
overpayment for reasons set forth therein.

On October 25, 2018,

jurisdiction over the underlying overpayment claim was
relinquished to Respondent, and the case was closed.

Petitioner

filed an Amended Motion for Attorneys’ Fees on October 29, 2018
(“Amended Motion”), and an Addendum to the Amended Motion on
November 19, 2018.
Petitioner’s Amended Motion was assigned case number 185833F, and a final hearing was scheduled for February 11, 2019.
Following the undersigned’s denial of Petitioner’s motion to
appear telephonically at the final hearing, the undersigned
granted Petitioner’s Motion for a Continuance and continued the
final hearing to May 30, 2019, to coincide with Petitioner’s
planned travel to the area from California.
2

3c
The hearing commenced as rescheduled on May 30, 2019.
Petitioner testified on his own behalf and proffered the
testimony of Jack Campbell, State Attorney for the Second
Judicial Circuit of Florida.

Petitioner’s Exhibits 2 through 4,

10 through 22, 24, 35 through 38, and 45 were admitted in
evidence.

Petitioner also proffered exhibits 26 through 34,

which were not admitted, but travel with the record of this
case.
Respondent presented the testimony of Jennifer Peddicord,
Government Operations Consultant III for the Department of
Financial Services, Bureau of State Payroll.

Respondent’s

Exhibits 3 through 5, 7, 8, 16, and 17 were admitted in
evidence.
The one-volume Transcript of the final hearing was filed on
June 14, 2019.

Pursuant to the undersigned’s Order Granting

Extension of Time, the parties’ proposed final orders were due
30 days after the date on which the Transcript was filed, or
July 15, 2019.1/
Both parties timely filed proposed final orders,2/ and the
undersigned has considered Respondent’s entire submittal in
preparing this Final Order.

Petitioner’s post-hearing submittal

exceeded the 40-page limit and Petitioner did not seek leave
from the undersigned to exceed the page limit.
Code R. 28-106.215.

See Fla. Admin.

Therefore, the undersigned only considered
3

4c
the first 40 pages of Petitioner’s 68-page submittal in
preparing this Final Order.
Unless otherwise noted, all citations to the Florida
Statutes are to the 2018 version.
FINDINGS OF FACT
Parties
1.

Petitioner, Artem Joukov, is a member of the Florida

Bar, and was employed as an Assistant State Attorney in the
Office of the State Attorney of the Second Judicial Circuit
(“State Attorney’s Office” or “SAO”) from April 29, 2016, to
February 20, 2018.
2.

Petitioner claims to be the sole proprietor of an

unincorporated investment company, of which he is the only
employee.

In support of this claim, Petitioner introduced in

evidence the 2016, 2017, and 2018 account activity statements
from his individual stock portfolio and other equity investments
made through the platform, Interactive Brokers, LLC, whose
business address is in Greenwich, Connecticut.
3.

The year-end value of Petitioner’s account did not

exceed $250,000 in any of the three referenced years.
4.

Respondent, the State Attorney’s Office, is a

government entity which qualifies as a state agency pursuant to
section 120.52, Florida Statutes (2019).

4

5c
5.

Respondent did not employ Petitioner as an investment

advisor or otherwise utilize Petitioner’s investment skills.
Underlying Overpayment Claim
6.

Respondent terminated Petitioner’s employment on

February 20, 2018.

Respondent paid Petitioner through the end

of the pay period on February 28, 2018.

Petitioner’s final

paycheck included $940.04 for days subsequent to his termination
(days on which he did not work).
7.

As of the date of the final hearing, Petitioner had

not reimbursed Respondent for the overpayment.3/
8.

Carol Houck is the Human Resource Administrator and

Purchasing Administrator for the State Attorney’s Office.

Ms.

Houck’s primary job duties include administration of both the
personnel hiring and separation processes.
9.

Ms. Houck discovered the pending overpayment while

processing payroll records after Petitioner was terminated.
10.

On February 26, 2018, Ms. Houck notified Petitioner of

the overpayment, via electronic mail (“email”), and requested
Petitioner repay that amount as soon as possible via check to
the SAO.
11.
course!”

On February 27, 2018, Petitioner responded, “Of
Petitioner then inquired whether Respondent could

retrieve the overpayment from his deferred compensation account.
Petitioner explained that, as he had not yet obtained new
5

6c
employment, he would not be in a position to repay that amount
if the scheduled deduction from his final paycheck had been made
to his deferred compensation account.

Petitioner requested

Respondent “give [him] some additional time” to repay the money
if it could not be pulled from his deferred compensation
account.
12.

Ms. Houck discussed the issue with Mary Dean Barwick,

the Executive Director for the State Attorney’s Office.

Ms.

Barwick is primarily responsible for the overall administrative
management of the SAO, including oversight and management of the
budget and expenditures.
13.

The following day, February 28, 2018, Ms. Houck

responded to Petitioner with an offer to use Petitioner’s
accrued leave hours to cover the overpayment, rather than
disrupt his deferred compensation account.

She explained that,

after deduction for the overpayment, Petitioner would have a
balance of approximately 12 hours of accrued leave, which
Respondent could either transfer, or pay out, to Petitioner.
14.

Petitioner responded on the same date rejecting

Respondent’s offer to recoup the overpayment from his accrued
leave.

Instead, Petitioner explained that he preferred reversal

of the automatic deposit to his deferred compensation account
rather than recoupment from his accrued leave.

6

In lieu of

7c
accepting that method, Petitioner requested more time to submit
the repayment.
15.

The following day, March 1, 2018, Ms. Houck replied,

“We will give you until March 31st to remit payment.”

Petitioner

immediately replied, “Ok, thank you.”
16.

On March 12, 2018, Petitioner became employed by the

Department of Business and Professional Regulation (“DBPR”).

On

that same date, Petitioner sent an email to Ms. Houck stating
that he no longer wished Respondent to secure repayment from his
deferred compensation account and that the best method of
repayment would be in installments by the end of April.

He

proposed to pay $337.05 by March 31, 2018, and the remaining
balance by April 30, 2018.
17.

On March 28, 2018, Ms. Houck rejected this offer and

replied with a request that Petitioner pay the amount in its
entirety by March 31, 2018, in accordance with the payment plan
agreed to on March 1, 2018.

Ms. Houck further stated that she

would transfer his accrued leave hours to DBPR once Respondent
received the repayment.
18.

Petitioner made no payment to Respondent on March 31,

2018, or on any date thereafter.
19.

On April 6, 2018, Ms. Barwick sent the following email

to Petitioner:
We have received guidance from the Bureau of
7

8c
State Payrolls [sic]. Their procedures are
[sic] immediate collection of the
overpayment. Once the deadline we establish
is not met and you have been notified twice
(by certified mail), then we can proceed
with the collection process. The Bureau of
State Payrolls would proceed by collecting
the overpayment from your current wages and
remitting the funds directly to us. We feel
it would work better for both parties to
reach an agreement on the repayment date.
Please advise us on the most current date
you can remit your overpayment. I will be
glad to answer any questions you may have on
this matter. Thank you.
20.

On April 7, 2018, Petitioner responded, recounting the

various communications he had received regarding repayment of
the overpayment, and requesting Respondent to cite the
applicable administrative rules under which it was pursuing
repayment.

He also requested contact information for a

representative at the Bureau of State Payroll (the “Bureau”) to
help him understand his rights as an employee.
21.

In the same response, Petitioner stated that he did

not believe Respondent’s action withholding Petitioner’s leave
hours was permissible and requested Respondent to transfer the
leave hours to DBPR.
22.

On April 9, 2018, Ms. Barwick requested Petitioner’s

telephone number in an effort to discuss a repayment schedule.
Petitioner responded that he wished to continue using email
communication to have a record of their correspondence.

8

9c
Petitioner reiterated his requests for transfer of his leave
hours and contact information for someone at the Bureau.
23.

On April 10, 2018, Ms. Barwick replied, “Your

overpayment of wages is due immediately.”

She stated that the

governing regulations were the Classification and Pay Plan for
State Attorneys of Florida.

Ms. Barwick offered to transfer

Petitioner’s leave hours if they could agree to a repayment
schedule, and expressed that she would rather avoid the
collection process outlined in her prior email.

Finally, she

requested a good time to call and discuss the issue.
24.

In his response that same day, Petitioner reiterated

his desire to keep discussions in writing via email, for
recordkeeping purposes.

He further stated he had contacted the

DBPR Human Resources Department to determine whether a portion
of his wages could be redirected to the Respondent on a monthly
basis.

Petitioner stated he was unable to discuss a repayment

plan with Ms. Barwick until he had that information.

Petitioner

again requested Respondent either transfer his leave hours or
provide the statute authorizing Respondent to withhold his
accrued leave.
25.

On April 12, 2018, Ms. Houck, transferred Petitioner’s

accrued leave to DBPR.
26.

Petitioner filed a complaint regarding Respondent’s

efforts to recoup the overpayment with the Florida Commission on
9

10c
Human Relations (“FCHR”) some time between April 11 and 19,
2018.4/
27.

On April 19, 2018, Ms. Barwick emailed Petitioner a

proposed reimbursement agreement for his review.

The proposed

agreement would have required Petitioner to repay the
overpayment in two installments--on June 1 and July 1, 2018.
Petitioner responded that he would not be engaging in repayment
negotiations until the FCHR had the opportunity to conclude its
investigation.5/
28.

After the parties failed to reach an amicable

repayment plan via email, Respondent initiated the formal
collection process.

On May 2, 2018, Respondent sent the

following letter to Petitioner via certified mail to his home
address in Tallahassee:
Dear Mr. Joukov:
As we have outlined in numerous email
correspondence, you were overpaid by the
Office of the State Attorney for 48 unearned
hours in the amount of $940.04. This
overpayment occurred as a result of your
separation from the office after payroll had
closed in February 2018.
Despite repeated requests, to date, we have
not received any monies due back to the
State for this overpayment. Please accept
this letter as our demand to repay this full
amount by the close of business, May 21,
2018.
You may be entitled to a hearing under
10

11c
Section 120.57, F.S., or other rights under
Section 120.569, F.S. However, please note
that employees of the Office of the State
Attorney are exempt from Career Service
System provided in Ch. 110, F.S., and are
governed by the Classification and Pay Plan
for the State Attorneys of Florida. You
will be expected to repay the net amount
received plus federal taxes due if the net
amount is not fully repaid in the same
calendar year in which it was paid.
This letter represents the notice required
by and is in compliance with the process for
collecting salary overpayments issued by the
Bureau of State Payroll.
29.

Petitioner intentionally failed to retrieve the

certified letter from the post office.
30.

On May 15, 2018, Respondent sent the letter again by

certified mail to the General Counsel’s Office at DBPR.

The

letter was identical except that it set a deadline of May 31,
2018, for Petitioner to repay the full amount.

Petitioner

received this letter via interoffice mail at DBPR.

Petitioner

did not respond to the letter.
31.

On June 15, 2018, Respondent personally served the

letter via sheriff’s deputy to Petitioner at his office at DBPR.
Again, the letter was identical to the May 2 and 15 letters,
with the exception of a June 28, 2018, due date for full
payment.

Copies of the May 2 and 15 letters were included with

the June 15, 2018 hand-delivered letter.

11

12c
32.

Petitioner did not respond to the June 15, 2018

letter.
33.

On or about July 19, 2018, Petitioner filed a

complaint with the Florida Bar against one of his former
colleagues at the SAO.
34.

On July 30, 2018, Petitioner alerted the Florida Bar

to a pending address change, notifying the Bar of his intent to
move to California on August 1, 2018.

In this correspondence,

he included his parent’s address in Gulf Shores, Alabama, as the
interim contact while he established a permanent address in
California.
35.

Having had no response from Petitioner, Respondent

forwarded the demand letters and other information to the Bureau
to execute the process for garnishing Petitioner’s DBPR wages.
36.

On July 30, 2018, Constance Hosay, Financial

Administrator with the Bureau, sent a letter to DBPR authorizing
miscellaneous deductions from Petitioner’s paycheck beginning
with the next bi-weekly payroll.

The letter directed DBPR to

remit the monies to the SAO once collected via miscellaneous
deduction.
37.

Ms. Hosey informed Petitioner, via email on July 31,

2018, that the Bureau would begin garnishing his wages to
reimburse Respondent.

12

13c
38.

Petitioner then reached out to the Division to

determine how to request a hearing on the matter.

At the

direction of Division staff, Petitioner sent an email to Mr.
Campbell that same date requesting an administrative hearing.
39.

Petitioner voluntarily separated from employment with

DBPR on August 2, 2018.
40.

On August 9, 2018, Respondent forwarded Petitioner’s

request for hearing to the Division.

On August 15, 2018,

Respondent followed up with a letter to the Division attaching,
as the agency action letter, the personnel action request
documenting Petitioner’s termination date, the salary refund
calculations made by payroll, and the payroll calendar.
41.

None of the documents forwarded to the Division from

the SAO contained an address for Petitioner.
42.

Respondent filed the first pleading--a Notice of

Appearance by Eddie Evans on behalf of Respondent.

The

certificate of service noted an address for Petitioner in Gulf
Shores, Alabama.

The SAO had knowledge that Petitioner had

moved from Florida to California.

The SAO had knowledge of

Petitioner’s parents’ address as an interim contact from the
separate Florida Bar complaint.
43.

The Division entered the Gulf Shores, Alabama address

in its case information system as the address for Petitioner.

13

14c
44.

Petitioner’s first pleading was filed on August 23,

2018, and contained his address in Los Angeles, California, in
his signature line.

However, Petitioner never filed a notice of

change of address or otherwise notified the Division of his
correct address.
45.

Throughout the underlying repayment claim, the

Division mailed all orders to the Gulf Shores, Alabama address.
46.

On August 28, 2018, Petitioner filed a motion to

dismiss the underlying overpayment claim on grounds that the
documents upon which his request for hearing were predicated did
not constitute a valid agency action letter and point of entry.
Following a telephonic hearing on the motion, the undersigned
granted the motion on October 2, 2018, and dismissed the case,
with leave to amend.

The undersigned gave Respondent 15 days to

serve Petitioner with a notice of agency action which complied
with Florida Administrative Code Rule 28-106.111 and section
120.569(1), Florida Statutes.
47.

On October 18, 2018, Respondent’s current counsel

entered a notice of appearance and a Response to the Order
Granting the Motion to Dismiss (“Response”).
48.

In the Response, Respondent explained that, subsequent

to the Order, it had determined that the State of Florida “is no
longer withholding any [of Petitioner’s] funds which represented
the underlying basis of this proceeding.”
14

Respondent stated

15c
that the proceeding was initiated with Respondent’s notice that
it intended to collect “funds held by the State of Florida” as
reimbursement for the overpayment.

Further, Respondent

explained, “Because the State of Florida no longer holds those
funds, the due process to be afforded the Respondent through
this forum is no longer applicable.”
49.

On October 19, 2018, Petitioner filed a Motion for

Extension of Time to File Motion for Costs and Attorneys’ Fees,
seeking an extension of 30 days to file a motion for attorneys’
fees to comply with the safe harbor provision under section
57.105.

The undersigned denied the motion and indicated that

Petitioner could subsequently file a motion for fees and costs
which would initiate a new case separate from the underlying
overpayment claim.
50.

The undersigned closed the file of the underlying

overpayment claim and relinquished jurisdiction of same to the
SAO on October 25, 2018.
51.

Petitioner filed a Notice of Service of a Motion for

Sanctions pursuant to section 57.105 on October 26, 2018. On
October 29, 2018, Petitioner filed his Amended Motion seeking
fees under sections 120.595 and 57.111.

On November 19, 2018,

Petitioner filed an addendum to his Amended Motion seeking fees
pursuant to section 57.105.

15

16c
52.

Petitioner engaged in the underlying overpayment claim

in his individual capacity as a former employee, not as a small
business entity or investment company.
CONCLUSIONS OF LAW
Parties and Standing
53. The Division has jurisdiction over the parties to, and
the subject matter of, this proceeding.

See §§ 120.569,

120.57(1), 120.595(1), 57.105(5), and 57.111(4)(b), Fla. Stat.
(2019).
54.

Respondent is a state agency pursuant to section

120.52, Florida Statutes (2019).
55.

Petitioner may recover attorneys’ fees for

selfrepresentation.

See Albritton v. Ferrera, 913 So. 2d 5, 12-

13 (Fla. 1st DCA 2005)(citing Friedman v. Backman, 1984 Fla.
App. LEXIS 14676 *2 (Fla. 4th DCA 1984)(“In a frivolous suit
against a lawyer, he is entitled to attorney’s fees for his time
and effort under section 57.105, just as he is for services
rendered by counsel he employs to represent him.”); see also
Maulden v. Corbin, 537 So. 2d 1085, 1087 (Fla. 1st DCA 1989).
56.

In seeking attorneys’ fees, Petitioner must prove he

is entitled to attorneys’ fees by a preponderance of evidence.
See § 120.57(1), Fla. Stat.
Section 57.105
57.

Petitioner is entitled to an award of attorneys’ fees

under section 57.105 if (1) Petitioner is the prevailing party;
16

17c
(2) Respondent is the losing party; and (3) Respondent knew or
should have known that its claim was not supported by the
material facts or the application of existing law to those
facts.

See § 57.105, Fla. Stat.

58.

“[A] party who receives affirmative judicial or

equitable relief is clearly considered a prevailing party under
the law.”

Coconut Key Homeowner’s Ass’n v. Gonzalez, 246 So. 3d

428, 434 (Fla. 4th DCA 2018).

Petitioner received affirmative

relief when the undersigned granted his motion to dismiss the
underlying overpayment claim.

Petitioner is the prevailing

party in the underlying overpayment claim.
59.

Respondent is the non-prevailing, or losing, party in

the underlying overpayment claim.
60.

While Petitioner has proven the first two elements of

the fees inquiry, he has not proven the third element. See
Whitten v. Progressive Casualty Ins. Co., 410 So. 2d 501, 505–
506 (Fla. 1982)(holding that Progressive was not entitled to
attorneys’ fees because the initial claim was not frivolous).
Attorneys’ fees should only be awarded when the non-prevailing
party’s claim was frivolous, lacking any justiciable issue.

Id.

When the non-prevailing party presents a frivolous claim and it
“is so readily recognizable that there is little if any prospect
whatsoever that it can succeed,” payment of attorneys’ fees to

17

18c
the prevailing party is warranted.

See Whitten, 410 So. 2d at

505.
61.

The underlying overpayment claim was not frivolous. It

was not obvious that Respondent’s claim, attempting to recoup an
overpayment, would not succeed.

The undisputed fact is that

Petitioner was overpaid by Respondent in the amount of $940.04.
Respondent’s claim to recoup the overpayment was supported by
the material facts.

Petitioner cited no authority to support a

conclusion that Respondent’s pursuit of the overpayment was not
supported by existing law.6/
Section 57.111
62.

Petitioner is entitled to attorneys’ fees under

section 57.111 if (1) Petitioner qualifies as a prevailing
“small business party”; (2) Respondent initiated the proceedings
in the underlying case; and (3) the initial proceedings were
substantially unjustified.
63.

See § 57.111, Fla. Stat.

Section 57.111 defines a “small business party” as

follows:
A sole proprietor of an unincorporated
business, including a professional practice,
whose principal office is in the state, who
is domiciled in the state, and whose
business or professional practice has, at
the time the action is initiated by a state
agency, not more than 25 full-time employees
or a net worth of more than $2 million,
including both personal and business
investments.

18

19c
64.

Petitioner did not establish that he operates a small

business with a principal office in the State of Florida.

To

the extent that his personal stock trades and other equity
investments qualify as a small business, the evidence does not
support a finding that the business has a principal office in
the State of Florida.

Further, Petitioner resides in California

and did not introduce evidence that he has established domicile
in Florida.
65.

Assuming, arguendo, Petitioner’s personal portfolio

investments through an investment platform in Greenwich,
Connecticut, qualifies as a small business domiciled in Florida,
Petitioner’s 57.111 claim still fails.

The underlying

overpayment claim was brought against Petitioner in his
personal, not business, capacity.

“The owner of a partnership

or corporation who prevails in an administrative proceeding
initiated by a state agency is not entitled to attorneys’ fees
and costs under [57.111] when the complaint is filed against the
owner in his or her individual capacity.”

Daniels v. Fla. Dep’t

of Health, 898 So. 2d 61, 63 (Fla. 2005); see also Fla. Real
Estate Comm’n v. Shealy, 647 So. 2d 151 (Fla. 1st DCA 1994)
(holding that while Shealy was the sole proprietor of a small
business, he was not entitled to attorneys’ fees under section
57.111 because he was not sued in his business capacity).

19

20c
66.

Assuming, again, arguendo, that Petitioner was a

prevailing small business party, pursuant to section 57.111, his
claim still fails because Respondent was substantially justified
in pursuing the underlying overpayment claim.

According to

section 57.111, a claim is substantially justified when it has a
reasonable basis in law and fact at the time the proceeding was
initiated.

Gentele v. Dep’t. of Prof’l Reg., Bd. of Optometry,

513 So. 2d 672, 672 (Fla. 1st DCA 1987)(holding that appellee
was substantially justified and therefore not liable for
attorneys’ fees).
67.

Petitioner owed Respondent money and had initially

agreed to a repayment plan, but did not follow through with
repayment.

Further, Petitioner would not negotiate with

Respondent on other possible repayment plans when the initial
repayment plan was unsuccessful.

Respondent, having exhausted

other routes, sought to garnish Petitioner’s wages.
Respondent’s initial claim had a reasonable basis in both fact
and law.

Unfortunately, due largely to the passage of time,

caused by Petitioner’s delay and voluntary separation from DBPR,
by the time the underlying overpayment claim came before DOAH,
the State of Florida no longer held funds from which to recoup
the overpayment.
Section 120.595

20

21c
68.

Petitioner is entitled to attorneys’ fees under

section 120.595 if (1) Petitioner is the prevailing party; (2)
Respondent is the “non-prevailing adverse party”; and (3)
Respondent participated in the proceeding for an improper
purpose.
69.

See § 120.595, Fla. Stat.
For the same reason Petitioner qualifies as the

prevailing party under section 57.105, he also qualifies as the
prevailing party under section 120.595.

See §§ 57.105 and

120.595, Fla. Stat.
70.

It is well-settled that when an agency is the party

taking action, it does not qualify as a non-prevailing adverse
party.

See Johnson v. Dep’t of Corr., 191 So. 3d 965 (Fla. 1st

DCA 2016); Rafael R. Palacios v. Dep’t of Bus. Prof’l Reg., Case
No. 99-4163 (Fla. DOAH Nov. 20, 2000); Ernest Sellars v. Broward
Cnty. Sch. Bd., Case No. 97-3540 (Fla. DOAH Sept. 25, 1997).
explained in Johnson v. Department of Corrections, Case

As

No. 15-

1803F (Fla. DOAH Jan. 1, 2010), when an agency is the party
proposing to take action against another, the agency, “by
definition, cannot be a non-prevailing adverse party since it is
the agency that is proposing to take action, not a party that is
trying to change the proposed action.”
71.

In the underlying overpayment claim, Respondent was

the party proposing to take action (i.e., collection of the

21

22c
overpayment), and as such cannot qualify as a non-prevailing
adverse party pursuant to section 120.595.
72.

Therefore, even though Petitioner in this case

“prevailed” in the underlying overpayment claim, he cannot
recover attorneys’ fees under section 120.595.
73.

Assuming, arguendo, Respondent was the non-prevailing

adverse party, Petitioner must show that Respondent brought its
claim for an improper purpose in order to prevail in his
attorneys’ fees claim.
74.

See § 120.595, Fla. Stat.

A party participates in a matter for an improper

purpose when he or she participates “primarily to harass or to
cause unnecessary delay or for frivolous purpose or to
needlessly increase the cost of litigation, licensing, or
securing the approval of an activity.”

See § 120.595, Fla.

Stat.
75.

Whether a party engaged in an action for an “improper

purpose” is analyzed under an objective reasonableness standard
based on the applicable facts and relevant law.

See Procacci

Commercial Realty, Inc. v. Dep’t of HRS, 690 So. 2d 603, 608 n.9
(Fla. 1st DCA 1997).

In applying the improper purpose standard,

courts should not, as urged by Petitioner throughout this
proceeding, “delve into an attorney’s or a party’s subjective
intent or into a good faith-bad faith analysis.”

Friends of

Nassau Cnty. v. Nassau Cnty., 752 So. 2d 42, 50 (Fla. 1st DCA
22

23c
2000)(citing Mercedes Lighting and Elec. Supply, Inc. v. Dep’t
of Gen. Servs., 560 So. 2d 272, 278 (Fla. 1st DCA 1990)).

“[I]f

a reasonably clear legal justification can be shown for [the
action], improper purpose cannot be found and sanctions are
inappropriate.”
76.

Id.

Respondent had a clear legal justification for

pursuing the underlying overpayment claim--Respondent was owed
money paid to, but not earned by, Petitioner.

Even if

Respondent were the non-prevailing adverse party, fees are
inappropriate because Respondent did not file the underlying
overpayment claim for an improper purpose.7/
Inequitable Conduct Doctrine
77.

Petitioner also claims entitlement to attorneys’ fees

under the inequitable conduct doctrine.

Under this rarely

applied doctrine, one party may be entitled to attorneys’ fees
if the other party exhibited egregious conduct or acted in bad
faith.

See Bitterman v. Bitterman, 714 So. 2d 356, 365 (Fla.

1998)(holding that attorneys’ fees could be awarded when
counsel’s conduct was egregious).

Petitioner argues the

undersigned has inherent authority under this common law
principle to award attorneys’ fees.
78.

The undersigned has no such inherent authority.

The

Division is limited to the powers, duties, and authority
conferred by statute.

See Fla. Elec. Comm’n v. Davis, 44 So. 3d
23

24c
1211 (Fla. 1st DCA 2010); Dep’t of Rev. v. Selles, 47 So. 3d 916
(Fla. 1st DCA 2010); City of Cape Coral v. GAC Utilities, Inc.,
281 So. 2d 493 (Fla. 1973).

The undersigned cannot invoke the

inequitable conduct doctrine for an award of attorneys’ fees.8/
Constitutional Issues
79.

In Petitioner’s Motion Raising Constitutional

Challenges to Portions of Florida Attorney’s Fees Statutes,
Petitioner raised facial constitutional challenges to section
57.111 (i.e., definition of “small business party”); section
120.595 (i.e., definition of “non-prevailing adverse party”);
any provisions, statute, regulation, rule “or other legal
authority” which fails to extend to the undersigned the inherent
authority to impose attorneys’ fees under the inequitable
conduct doctrine; and “any of the statutes above that might
prevent recovery of costs or fees based on domicile, state of
origin, or the location of the party,” under the Privileges and
Immunities clause of the United States Constitution.
80.

Contrary to Petitioner’s insistence, the undersigned

does not have the authority to rule on Petitioner’s
constitutional claims.

As stated in the undersigned’s Order on

Petitioner’s Motion Raising Constitutional Challenges, an
administrative agency does not have jurisdiction to address the
constitutionality of a statutory provision.

See B&B Steel

Erectors v. Burnsed, 591 So. 2d 644, 648 (Fla. 1st DCA 1991).
24

25c
Nor is a claimant required to argue the facial constitutionality
of a statute before an administrative tribunal for the issue to
be cognizable on appeal.

See Key Haven Assoc. Enterprises, Inc.

v. Bd. of Trs. of the Int. Imp. Trust Fund, 427 So. 2d 153, 157
(Fla. 1982).

However, a party may choose to complete the

administrative process and then challenge the facial
constitutionality in the district court on direct appeal.

Id.

This “process [] allow[s] all issues to be decided in the least
expensive and time-consuming manner.”
81.

Id.

During the final hearing, Petitioner was given the

opportunity to build a record to support his constitutional
claims on appeal.

The undersigned makes no conclusions

regarding the constitutionality of the statutes cited by
Petitioner.
ORDER
Based on the foregoing Findings of Fact and Conclusions of
Law, Petitioner, Artem Joukov, is not entitled to attorneys’
fees incurred in Case No. 18-4235.
DONE AND ORDERED this 19th day of August, 2019, in
Tallahassee, Leon County, Florida.

SUZANNE VAN WYK
Administrative Law Judge
Division of Administrative
Hearings
25

26c
The DeSoto Building
1230 Apalachee Parkway
Tallahassee, Florida 32399-3060
(850) 488-9675
Fax Filing (850) 921-6847
www.doah.state.fl.us
Filed with the Clerk of the
Division of Administrative
Hearings this 19th day of August,
2019.

ENDNOTES
By agreeing to an extended deadline for filing their
proposed final orders, the parties waived the requirement that
this Final Order be issued within 30 days of the date the
Transcript was received. See Fla. Admin. Code R. 28-106.216(2).

1/

The undersigned’s Order Granting Extension of Time
erroneously refers to the parties’ post-hearing filings as
proposed recommended orders.

2/

Petitioner disputes that he is indebted to Respondent for
the overpayment. Petitioner has pending claims against
Respondent for unlawful discharge and, on that basis, claims
Respondent owes him (i.e., for damages), not vice versa.

3/

Respondent suggested this occurred on April 16, 2018, but
Petitioner did not affirm the specific date, agreeing only that
it occurred between April 11 and 19, 2018.
4/

The FCHR concluded its investigation in September 2018,
finding that it did not have jurisdiction in the matter.

5/

Instead, Petitioner points to the error in Respondent’s
Notice of Agency Action, which excluded an explanation of the
method to exercise his right to a hearing and the timeframe for
doing so. Petitioner argues that the case was dismissed for that
exact error, thus making the SAO’s claim frivolous--the SAO knew
or should have known that its claim would be dismissed for
failure to meet the procedural requirements for a notice of
agency action.
6/

26

27c

Petitioner’s argument erroneously equates the undersigned’s
order granting the motion to dismiss with an order granting a
motion for summary judgment or other order passing on the
substance of the underlying claim. The fact that the SAO fumbled
in crafting the document by which it sought return of the
overpayment does not render the overpayment claim itself
unsupported by fact and law. The fact remains that Petitioner
was overpaid and Respondent had a legal right to recover that
overpayment.
Here, Petitioner argues that improper purpose can be
inferred from the way the SAO attempted to collect the
overpayment. Petitioner points to the personal service of the
demand letter by sheriff’s deputy at his place of business,
pleadings and orders mailed to his parents’ address, and
preparation of multiple demand letters that fell short of the
requirements for a notice of agency action, as evidence that
Respondent initiated the proceeding to harass Petitioner. None
of those facts undermines the conclusion that Respondent had a
clear legal right to recoup the overpayment. Whether Respondent
blundered in its attempts to recoup the overpayment is
irrelevant. Further, Petitioner glosses over his own behavior
which contributed to the increasingly hostile character of the
underlying overpayment claim. For example, if Petitioner had not
avoided service of the demand letters by certified mail,
Respondent would not have had to resort to personal service.

7/

Assuming the undersigned had the inherent authority to
apply the inequitable conduct doctrine, the undersigned would
find that the doctrine does not to support an award of fees in
the instant case. Respondent, seeking to recoup an overpayment,
attempted to reach an amicable repayment plan over a period of
two months by email and only began pursuing repayment by other
means after Petitioner failed to comply with an agreed upon
repayment plan, and subsequently refused to negotiate a new
repayment plan. It was neither egregious, nor in bad faith, for
Respondent to proceed with garnishment of wages after
negotiations had failed.

8/

27

28c
COPIES FURNISHED:
Michael P. Spellman, Esquire
Sniffen & Spellman, P.A.
123 North Monroe Street
Tallahassee, Florida 32301
(eServed)
Mitchell J. Herring, Esquire
Sniffen & Spellman, P.A.
123 North Monroe Street
Tallahassee, Florida 32301
(eServed)
Artem Mikhailovich Joukov, Esquire
Apartment 304
2651 Ellendale Place
Los Angeles, California 90007
(eServed)

NOTICE OF RIGHT TO JUDICIAL REVIEW
A party who is adversely affected by this Final Order is
entitled to judicial review pursuant to section 120.68, Florida
Statutes. Review proceedings are governed by the Florida Rules
of Appellate Procedure. Such proceedings are commenced by
filing the original notice of administrative appeal with the
agency clerk of the Division of Administrative Hearings within
30 days of rendition of the order to be reviewed, and a copy of
the notice, accompanied by any filing fees prescribed by law,
with the clerk of the District Court of Appeal in the appellate
district where the agency maintains its headquarters or where a
party resides or as otherwise provided by law.

28

1d
STATE OF FLORIDA
DIVISION OF ADMINISTRATIVE HEARINGS
ARTEM M. JOUKOV,
Petitioner,
vs.

Case No. 18-5833F

OFFICE OF STATE ATTORNEY SECOND
JUDICIAL CIRCUIT OF FLORIDA,
Respondent.
_______________________________/
ORDER DENYING MOTION FOR REHEARING
This cause came before the undersigned on Petitioner’s
Motion for Rehearing (Motion), filed on August 22, 2019. The
undersigned being fully advised, it is, therefore,
ORDERED that the Motion is Denied.
DONE AND ORDERED this 22nd day of August, 2019, in
Tallahassee, Leon County, Florida.

SUZANNE VAN WYK
Administrative Law Judge
Division of Administrative Hearings
The DeSoto Building
1230 Apalachee Parkway
Tallahassee, Florida 32399-3060
(850) 488-9675
Fax Filing (850) 921-6847
www.doah.state.fl.us
Filed with the Clerk of the Division
of Administrative Hearings this 22nd
day of August, 2019.
1

2d
COPIES FURNISHED:
Michael P. Spellman, Esquire
Sniffen & Spellman, P.A.
123 North Monroe Street
Tallahassee, Florida 32301
(eServed)
Mitchell J. Herring, Esquire
Sniffen & Spellman, P.A.
123 North Monroe Street
Tallahassee, Florida 32301
(eServed)
Artem Mikhailovich Joukov, Esquire
Apartment 304
2651 Ellendale Place
Los Angeles, California 90007
(eServed)

2

1e
FLA. STAT. 57.105 (2020) Attorney’s fee; sanctions for raising
unsupported claims or defenses; exceptions; service of motions; damages
for delay of litigation.—
(1) Upon the court’s initiative or motion of any party, the court shall award a
reasonable attorney’s fee, including prejudgment interest, to be paid to the
prevailing party in equal amounts by the losing party and the losing party’s
attorney on any claim or defense at any time during a civil proceeding or action in
which the court finds that the losing party or the losing party’s attorney knew or
should have known that a claim or defense when initially presented to the court or
at any time before trial:
(a) Was not supported by the material facts necessary to establish the claim or
defense; or
(b) Would not be supported by the application of then-existing law to those
material facts.
(2) At any time in any civil proceeding or action in which the moving party
proves by a preponderance of the evidence that any action taken by the opposing
party, including, but not limited to, the filing of any pleading or part thereof, the
assertion of or response to any discovery demand, the assertion of any claim or
defense, or the response to any request by any other party, was taken primarily for
the purpose of unreasonable delay, the court shall award damages to the moving
party for its reasonable expenses incurred in obtaining the order, which may
include attorney’s fees, and other loss resulting from the improper delay.
(3) Notwithstanding subsections (1) and (2), monetary sanctions may not be
awarded:
(a) Under paragraph (1)(b) if the court determines that the claim or defense was
initially presented to the court as a good faith argument for the extension,
modification, or reversal of existing law or the establishment of new law, as it
applied to the material facts, with a reasonable expectation of success.
(b) Under paragraph (1)(a) or paragraph (1)(b) against the losing party’s
attorney if he or she has acted in good faith, based on the representations of his or
her client as to the existence of those material facts.
(c) Under paragraph (1)(b) against a represented party.
(d) On the court’s initiative under subsections (1) and (2) unless sanctions are
awarded before a voluntary dismissal or settlement of the claims made by or
against the party that is, or whose attorneys are, to be sanctioned.
1

2e
(4) A motion by a party seeking sanctions under this section must be served but
may not be filed with or presented to the court unless, within 21 days after service
of the motion, the challenged paper, claim, defense, contention, allegation, or denial
is not withdrawn or appropriately corrected.
(5) In administrative proceedings under chapter 120, an administrative law
judge shall award a reasonable attorney’s fee and damages to be paid to the
prevailing party in equal amounts by the losing party and a losing party’s attorney
or qualified representative in the same manner and upon the same basis as
provided in subsections (1)-(4). Such award shall be a final order subject to judicial
review pursuant to s. 120.68. If the losing party is an agency as defined in
s. 120.52(1), the award to the prevailing party shall be against and paid by the
agency. A voluntary dismissal by a nonprevailing party does not divest the
administrative law judge of jurisdiction to make the award described in this
subsection.
(6) The provisions of this section are supplemental to other sanctions or
remedies available under law or under court rules.
(7) If a contract contains a provision allowing attorney’s fees to a party when he
or she is required to take any action to enforce the contract, the court may also
allow reasonable attorney’s fees to the other party when that party prevails in any
action, whether as plaintiff or defendant, with respect to the contract. This
subsection applies to any contract entered into on or after October 1, 1988.
(8) Attorney fees may not be awarded under this section in proceedings for an
injunction for protection pursuant to s. 741.30, s. 784.046, or s. 784.0485, unless the
court finds by clear and convincing evidence that the petitioner knowingly made a
false statement or allegation in the petition or that the respondent knowingly made
a false statement or allegation in an asserted defense, with regard to a material
matter as defined in s. 837.011(3).
History.—s. 1, ch. 78-275; s. 61, ch. 86-160; ss. 1, 2, ch. 88-160; s. 1, ch. 90-300; s.
316, ch. 95-147; s. 4, ch. 99-225; s. 1, ch. 2002-77; s. 9, ch. 2003-94; s. 1, ch. 2010129; s. 4, ch. 2019-167.

2

3e

FLA. STAT. 120.595 (2020) Attorney’s fees.—
(1) CHALLENGES TO AGENCY ACTION PURSUANT TO
SECTION 120.57(1).—
(a) The provisions of this subsection are supplemental to, and do not
abrogate, other provisions allowing the award of fees or costs in administrative
proceedings.
(b) The final order in a proceeding pursuant to s. 120.57(1) shall award
reasonable costs and a reasonable attorney’s fee to the prevailing party only
where the nonprevailing adverse party has been determined by the
administrative law judge to have participated in the proceeding for an improper
purpose.
(c) In proceedings pursuant to s. 120.57(1), and upon motion, the
administrative law judge shall determine whether any party participated in the
proceeding for an improper purpose as defined by this subsection. In making
such determination, the administrative law judge shall consider whether the
nonprevailing adverse party has participated in two or more other such
proceedings involving the same prevailing party and the same project as an
adverse party and in which such two or more proceedings the nonprevailing
adverse party did not establish either the factual or legal merits of its position,
and shall consider whether the factual or legal position asserted in the instant
proceeding would have been cognizable in the previous proceedings. In such
event, it shall be rebuttably presumed that the nonprevailing adverse party
participated in the pending proceeding for an improper purpose.
(d) In any proceeding in which the administrative law judge determines that
a party participated in the proceeding for an improper purpose, the
recommended order shall so designate and shall determine the award of costs
and attorney’s fees.
(e) For the purpose of this subsection:
1. “Improper purpose” means participation in a proceeding pursuant to
s. 120.57(1) primarily to harass or to cause unnecessary delay or for frivolous
purpose or to needlessly increase the cost of litigation, licensing, or securing the
approval of an activity.
2. “Costs” has the same meaning as the costs allowed in civil actions in this
state as provided in chapter 57.
3

4e
3. “Nonprevailing adverse party” means a party that has failed to have
substantially changed the outcome of the proposed or final agency action which
is the subject of a proceeding. In the event that a proceeding results in any
substantial modification or condition intended to resolve the matters raised in a
party’s petition, it shall be determined that the party having raised the issue
addressed is not a nonprevailing adverse party. The recommended order shall
state whether the change is substantial for purposes of this subsection. In no
event shall the term “nonprevailing party” or “prevailing party” be deemed to
include any party that has intervened in a previously existing proceeding to
support the position of an agency.
(2) CHALLENGES TO PROPOSED AGENCY RULES PURSUANT TO
SECTION 120.56(2).—If the appellate court or administrative law judge declares
a proposed rule or portion of a proposed rule invalid pursuant to s. 120.56(2), a
judgment or order shall be rendered against the agency for reasonable costs and
reasonable attorney’s fees, unless the agency demonstrates that its actions were
substantially justified or special circumstances exist which would make the
award unjust. An agency’s actions are “substantially justified” if there was a
reasonable basis in law and fact at the time the actions were taken by the
agency. If the agency prevails in the proceedings, the appellate court or
administrative law judge shall award reasonable costs and reasonable attorney’s
fees against a party if the appellate court or administrative law judge
determines that a party participated in the proceedings for an improper purpose
as defined by paragraph (1)(e). No award of attorney’s fees as provided by this
subsection shall exceed $50,000.
(3) CHALLENGES TO EXISTING AGENCY RULES PURSUANT TO
SECTION 120.56(3) AND (5).—If the appellate court or administrative law judge
declares a rule or portion of a rule invalid pursuant to s. 120.56(3) or (5), a
judgment or order shall be rendered against the agency for reasonable costs and
reasonable attorney’s fees, unless the agency demonstrates that its actions were
substantially justified or special circumstances exist which would make the
award unjust. An agency’s actions are “substantially justified” if there was a
reasonable basis in law and fact at the time the actions were taken by the
agency. If the agency prevails in the proceedings, the appellate court or
administrative law judge shall award reasonable costs and reasonable attorney’s
fees against a party if the appellate court or administrative law judge
determines that a party participated in the proceedings for an improper purpose
4

5e
as defined by paragraph (1)(e). No award of attorney’s fees as provided by this
subsection shall exceed $50,000.
(4) CHALLENGES TO AGENCY ACTION PURSUANT TO
SECTION 120.56(4).—
(a) If the appellate court or administrative law judge determines that all or
part of an agency statement violates s. 120.54(1)(a), or that the agency must
immediately discontinue reliance on the statement and any substantially similar
statement pursuant to s. 120.56(4)(f), a judgment or order shall be entered
against the agency for reasonable costs and reasonable attorney’s fees, unless
the agency demonstrates that the statement is required by the Federal
Government to implement or retain a delegated or approved program or to meet
a condition to receipt of federal funds.
(b) Upon notification to the administrative law judge provided before the
final hearing that the agency has published a notice of rulemaking under
s. 120.54(3)(a), such notice shall automatically operate as a stay of proceedings
pending rulemaking. The administrative law judge may vacate the stay for good
cause shown. A stay of proceedings under this paragraph remains in effect so
long as the agency is proceeding expeditiously and in good faith to adopt the
statement as a rule. The administrative law judge shall award reasonable costs
and reasonable attorney’s fees accrued by the petitioner prior to the date the
notice was published, unless the agency proves to the administrative law judge
that it did not know and should not have known that the statement was an
unadopted rule. Attorneys’ fees and costs under this paragraph and paragraph
(a) shall be awarded only upon a finding that the agency received notice that the
statement may constitute an unadopted rule at least 30 days before a petition
under s. 120.56(4) was filed and that the agency failed to publish the required
notice of rulemaking pursuant to s. 120.54(3) that addresses the statement
within that 30-day period. Notice to the agency may be satisfied by its receipt of
a copy of the s. 120.56(4) petition, a notice or other paper containing
substantially the same information, or a petition filed pursuant to s. 120.54(7).
An award of attorney’s fees as provided by this paragraph may not exceed
$50,000.
(c) Notwithstanding the provisions of chapter 284, an award shall be paid
from the budget entity of the secretary, executive director, or equivalent
administrative officer of the agency, and the agency shall not be entitled to
5

6e
payment of an award or reimbursement for payment of an award under any
provision of law.
(d) If the agency prevails in the proceedings, the appellate court or
administrative law judge shall award reasonable costs and attorney’s fees
against a party if the appellate court or administrative law judge determines
that the party participated in the proceedings for an improper purpose as
defined in paragraph (1)(e) or that the party or the party’s attorney knew or
should have known that a claim was not supported by the material facts
necessary to establish the claim or would not be supported by the application of
then-existing law to those material facts.
(5) APPEALS.—When there is an appeal, the court in its discretion may
award reasonable attorney’s fees and reasonable costs to the prevailing party if
the court finds that the appeal was frivolous, meritless, or an abuse of the
appellate process, or that the agency action which precipitated the appeal was a
gross abuse of the agency’s discretion. Upon review of agency action that
precipitates an appeal, if the court finds that the agency improperly rejected or
modified findings of fact in a recommended order, the court shall award
reasonable attorney’s fees and reasonable costs to a prevailing appellant for the
administrative proceeding and the appellate proceeding.
(6) OTHER SECTIONS NOT AFFECTED.—Other provisions, including
ss. 57.105 and 57.111, authorize the award of attorney’s fees and costs in
administrative proceedings. Nothing in this section shall affect the availability of
attorney’s fees and costs as provided in those sections.
History.—s. 25, ch. 96-159; s. 11, ch. 97-176; s. 48, ch. 99-2; s. 6, ch. 2003-94;
s. 13, ch. 2008-104; s. 3, ch. 2017-3.

6

